           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


     RECOVERY OF TITLE II PAYMENTS
  ISSUED AFTER BENEFICIARIES’ DEATHS


      January 2011   A-09-10-11037




AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

    Conduct and supervise independent and objective audits and
       investigations relating to agency programs and operations.
      Promote economy, effectiveness, and efficiency within the agency.
      Prevent and detect fraud, waste, and abuse in agency programs and
       operations.
      Review and make recommendations regarding existing and proposed
       legislation and regulations relating to agency programs and operations.
      Keep the agency head and the Congress fully and currently informed of
       problems in agency programs and operations.

   To ensure objectivity, the IG Act empowers the IG with:

    Independence to determine what reviews to perform.
    Access to all information necessary for the reviews.
    Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                              SOCIAL SECURITY
MEMORANDUM

Date:      January 4, 2011                                                                    Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Recovery of Title II Payments Issued After Beneficiaries’ Deaths (A-09-10-11037)


           OBJECTIVE
           To determine whether the Social Security Administration (SSA) took appropriate actions
           to recover payments issued after beneficiaries’ deaths.

           BACKGROUND
           SSA administers the Old-Age, Survivors and Disability Insurance program under Title II
           of the Social Security Act (Act). This program provides monthly benefits to retired and
           disabled workers, including their dependents and survivors. 1 Benefits are not payable
           for the month of a beneficiary’s death or later. Upon receipt of a report of death, SSA
           terminates the decedent’s benefits and initiates recovery for any payments issued for
           the month of death or later. 2

           Generally, any payments issued for the month of death or later are not subject to SSA’s
           normal overpayment recovery procedures.3 Instead, the recovery of these payments is
           the responsibility of the Department of the Treasury (Treasury). 4 Treasury recovers
           these payments from financial institutions through a process called reclamation. 5
           However, Treasury only has the authority to reclaim incorrect check payments for the
           prior 12 months.6 Similarly, for electronic fund transfers (EFT), Treasury and the
           financial institution that received the payments are responsible for recouping the

           1
               The Social Security Act § 201 et seq., 42 United States Code (U.S.C.) § 401 et seq.
           2
               SSA, Program Operations Manual System (POMS), GN 02230.018, GN 02408.005.C, GN 02408.010.
           3
               SSA, POMS, GN 02201.001.B.3.e, GN 02401.917.B & C.
           4
               SSA, POMS, GN 02408.001, GN 02408.610.A.2.
           5
               Treasury, Green Book, Chapter 5.
           6
               SSA, POMS, GN 02401.917, GN 02408.005.A.
Page 2 - The Commissioner

incorrect payments.7 However, the financial institution is usually only responsible for
amounts paid within 45 days after the beneficiary’s death and any amount remaining in
the account up to the amount incorrectly paid. 8

For any amounts that Treasury does not reclaim and the financial institution is not liable
to repay, SSA will attempt to contact the last withdrawers from the beneficiaries’ bank
accounts and request a refund. In addition, if the beneficiary had a representative
payee, SSA will attempt to recover benefits paid after death from the representative
payee. Further, if the benefits were deposited into a joint bank account and the
surviving joint account holder is receiving benefits on the decedent’s record, SSA will
attempt to recover the funds from the joint account holder’s benefits. 9

Payments after death are recorded as a “special payment amount” (SPA) on SSA’s
Master Beneficiary Record (MBR) until the amount is recovered or resolved. According
to data we obtained from the MBR, as of March 2008, 10 we estimate that approximately
130,000 deceased Title II beneficiaries had a payment after death balance of
$281 million. 11 For our audit, we reviewed a sample of these beneficiaries.

RESULTS OF REVIEW
SSA recovered most of the payments issued after beneficiaries’ deaths. However, we
also found that SSA needed to improve its controls and procedures to ensure that staff
takes appropriate and timely actions to recover these payments. Based on a random
sample of 200 deceased beneficiaries, we estimate that

•     $18.8 million in payments after death was not recovered or properly resolved for
      approximately 25,940 deceased beneficiaries, and

•     $34.8 million in payments after death that had been recovered or properly resolved
      needed to be removed as an SPA on the MBR for approximately 17,520 deceased
      beneficiaries (see Appendix C).




7
    SSA, POMS, GN 02408.610.
8
    31 C.F.R § 210.11 and SSA, POMS, GN 02408.625.D.
9
    SSA, POMS, GN 02408.630, GN 02230.040, GN 02201.007.F.
10
  Based on the MBR, SSA likely became aware of these beneficiaries’ deaths between January 1998
and March 2008.
11
   The MBR is divided into 20 segments, with each segment representing 5 percent of all records.
We identified a population of 6,486 deceased beneficiaries with $14,054,923 in payments after death
from one segment of the MBR. As a result, we estimate that approximately 130,000 beneficiaries
(6,486 x 20) had approximately $281 million in payments after death ($14,054,923 x 20).
Page 3 - The Commissioner

Generally, these errors occurred because SSA employees did not always (1) initiate
reclamation requests, (2) properly resolve alerts, (3) attempt recovery from liable
financial institutions/individuals, or (4) take corrective actions when too much was
recovered from beneficiaries.

Procedures for the Recovery of Payments Issued After Beneficiaries’ Deaths

When SSA receives a death report, it terminates payments and initiates recovery of any
benefits issued after the beneficiary’s death. SSA initiates the reclamation process by
electronically submitting a request for stop payment to Treasury. When Treasury
receives SSA’s reclamation request, it examines its records of issued payments. For
checks issued but not negotiated, Treasury will credit SSA for the payment amount. For
negotiated checks, Treasury will attempt to reclaim the amount from the financial
institution. Treasury will then credit SSA for any funds collected from the financial
institution. Treasury initiates similar actions for payments made by EFT. 12

If Treasury is unable to recover the entire amount of payments issued after a
beneficiary’s death, it will provide SSA with the name(s) of the individual(s) who
withdrew the funds from the beneficiary’s bank account. Thereafter, SSA is responsible
for collecting any remaining incorrect payments. When this occurs, SSA will pursue the
recovery by refund or benefit withholding to collect the amount owed. 13

SSA has automated controls over reclamation requests it sends to Treasury to ensure
they are properly resolved. Specifically, SSA has automated follow-up requests to
Treasury at 45 and 65 days to ensure SSA has received credit for any reclaimed funds.
After 18 months, SSA produces a final alert to resolve any remaining credits it should
have received from Treasury. SSA also has alerts to remind SSA employees that they
must initiate a reclamation request to Treasury or take corrective action for payments
issued after a beneficiary’s death. These alerts are generated at 150 days and
270 days for checks and annually for EFT payments.14

Unrecovered Payments Issued After Beneficiaries’ Deaths

Based on a random sample of 200 beneficiaries, we found that SSA fully recovered
payments after death to 117 beneficiaries and partially recovered and resolved
payments after death to 43 beneficiaries. However, we also found that SSA did not take
appropriate actions to initiate reclamation or other recovery actions for $29,012 in
payments after death to 40 beneficiaries. Our sample results are summarized below.




12
     SSA, POMS, GN 02408.001, GN 2408.600.
13
     SSA, POMS, GN 02401.917, GN 02408.630, GN 02210.007, GN 02230.040.
14
     SSA, POMS, SM 00624.300, SM 00624.301, SM 00619.068.
Page 4 - The Commissioner




The 200 beneficiaries had payments after death totaling $400,939. Of this,
$247,145 had been recovered, $57,465 was being recovered, and $70,043 was
determined to be uncollectible.

    Initiation of Reclamation and Resolution of Alerts – When SSA learns of a
beneficiary’s death, it must send a reclamation request to Treasury within 120 days. 15
In addition, SSA must follow up with Treasury on outstanding reclamation requests in a
timely manner. To ensure this occurs, there are periodic alerts to remind SSA
employees to initiate a reclamation request or resolve a prior reclamation request.
Upon receipt of an alert, SSA employees should review the beneficiary’s record and
take any appropriate actions. However, we found that some alerts did not occur soon
enough to ensure SSA employees initiated all reclamation requests within the 120-day
time limit. For example, SSA has an alert at 150 days to remind SSA employees that
they must initiate a reclamation request to Treasury, which is after the 120-day time
limit. 16

Our review disclosed that $11,303 in payments after death was not recovered from
13 (6.5 percent) of the 200 beneficiaries in our sample. This occurred because SSA
employees did not initiate reclamation requests or follow up with Treasury on
outstanding reclamation requests in a timely manner. Specifically, for seven
beneficiaries, SSA did not initiate a reclamation request within the required timeframe,


15
     SSA, POMS, GN 02408.600.A.
16
     SSA, POMS, GN 02408.610, SM 00619.068, SM 00624.301.B, SM 00624.330.D.
Page 5 - The Commissioner

and for six beneficiaries, SSA did not take appropriate actions to resolve periodic
Treasury alerts. Consequently, the payments made after death remained outstanding.

For example, a beneficiary who died in March 2006 received by EFT one incorrect
$721 payment after death. SSA timely initiated a reclamation request to Treasury.
However, staff did not follow up when Treasury did not respond to the request. SSA
generated an alert 18 months later. However, an SSA employee incorrectly cleared the
alert without any attempt to recover the $721.

    Recovery from Liable Individuals – SSA is responsible for recovering any payments
issued after death if the beneficiary had a representative payee. SSA is also
responsible when benefits were deposited into a joint account, and the surviving joint
account holder is entitled to benefits on the decedent’s record. 17 In addition, SSA must
attempt to recover from individuals not entitled on the decedent’s record who withdrew
payments issued after death from the beneficiary’s bank account. 18

Generally, SSA should seek recovery from liable individuals by obtaining repayment
agreements or adjusting current benefits to collect the amount owed. To initiate
recovery from liable individuals, SSA must send a letter to inform them of their liability
for the payments and request repayment. However, we found that SSA staff did not
send the required notices to five individuals in our sample who were liable for
repayment of $2,653 and did not initiate recovery of $726 after a surviving beneficiary
agreed to have the amount withheld from her benefits.

For example, a beneficiary received six payments after death totaling $1,946. SSA
initiated a timely reclamation request, and Treasury subsequently recovered $329 that
remained in the beneficiary’s bank account. In addition, Treasury provided SSA with
the name of the individual who had withdrawn funds from the beneficiary’s bank
account. However, SSA did not send a letter to inform the individual that she needed to
repay $1,617 in payments issued after the beneficiary’s death.

    Recovery of the 45-Day Amounts from Financial Institutions – Generally, financial
institutions are liable for the full amount of all EFT payments received after a
beneficiary’s death unless Treasury determines the financial institution meets certain
conditions that limit its liability. The financial institution can limit its liability to amounts
paid within 45 days of a beneficiary’s death and any amount remaining in the account
up to the amount owed. 19

When SSA initiates a reclamation request, Treasury contacts the financial institution to
reclaim any payments issued after a beneficiary’s death. The financial institution
returns all payments that remain in the account and provides Treasury the names of any

17
     The Social Security Act § 204(a)(2), 42 U.S.C. §404(a)(2) and SSA, POMS, GN 02201.007.F.2.
18
     SSA, POMS, GN 02408.630.
19
     31 C.F.R. § 210.11 and SSA, POMS, GN 02408.625.
Page 6 - The Commissioner

individuals who withdrew funds from the account. Treasury then provides this
information to SSA. If SSA determines that not all payments after death have been
returned, it must send a notice to the withdrawers from the beneficiary’s bank account.
If the withdrawers do not return the payments, SSA will notify Treasury to reclaim the
45-day amount from the financial institution. Treasury then notifies SSA of the amount
credited from the financial institution’s Federal Reserve Account. 20

Our review disclosed that SSA did not attempt to recover the 45-day amount for
15 (7.5 percent) of the 200 beneficiaries in our sample. The 15 beneficiaries had
$11,604 in payments after death that was not reclaimed because SSA did not request
Treasury to reclaim the 45-day amount or did not resolve the request within the required
3 years. 21

For example, in August 2007, SSA initiated a reclamation request to Treasury for
$1,700 in payments issued to a beneficiary after his death in March 2007. Treasury
subsequently recovered $1,031 from the bank account but did not recover the
remaining $669. Consequently, SSA should have requested Treasury to obtain the
45-day amount from the financial institution since the withdrawer did not return the
funds. However, SSA did not initiate the request.

    Underpayments Payable on Behalf of Deceased Beneficiaries – Of the
200 beneficiaries in our sample, we found that SSA had recovered $2,726 more than it
should have from 6. This occurred because SSA employees did not (1) properly credit
returned benefit checks or amounts recovered by Treasury or (2) inform Treasury when
it needed to correct a beneficiary’s date of death. When SSA needs to correct a date of
death on its records, it must inform Treasury of the correction and of any revisions to the
amount that Treasury should reclaim. However, we found that, for three of the six
beneficiaries, SSA did not inform Treasury of the necessary revisions. Consequently,
Treasury reclaimed more than the actual amount of benefits issued after death.

When SSA determines a deceased beneficiary is underpaid, it must determine the
proper recipient of the underpayment. Any underpayments due deceased beneficiaries
must be paid to the surviving spouse, surviving children, other family members, or legal
representative of the estate. 22

For example, a beneficiary received a $959 payment after his death in February 2008.
SSA initiated a reclamation request for the February payment, and the bank
subsequently returned two payments totaling $1,918. The bank returned the January
and February 2008 benefits. Because the beneficiary was entitled to the January 2008

20
  SSA, POMS, GN 02408.610, GN 02408.626, and Treasury’s Green Book, Chapter 5, Section 2.C &
Section 3.B.
21
     SSA, POMS, GN 02408.620.B.3.
22
     SSA, POMS, GN 02301.030, GN 02301.060, GN 02301.075.
Page 7 - The Commissioner

payment, SSA should have recorded an underpayment of $959 on the beneficiary’s
record. After the underpayment is established, SSA should then identify and issue the
payment to the appropriate recipient.

Recovered Payments that Need to be Removed from the MBR

For 28 of the 200 beneficiaries in our sample, we found that SSA had recovered
$96,461 in payments made after death. 23 Specifically, SSA had properly reviewed,
recovered, or resolved the payments but did not delete them from the MBR as required.
Although these incorrect payments did not require additional follow-up actions with
Treasury, they should have been removed from the MBR to ensure SSA’s payment
records were accurate and up-to-date. Removing erroneous overpayments from the
MBR prevents withholding of these amounts from benefits that could be payable to
surviving beneficiaries. Our review found that SSA staff had made clerical errors, such
as incorrectly recording or not recording the amounts that had been recovered. This
occurred even after Treasury had recovered all payments made after death.

For example, a beneficiary received two payments after death totaling $2,168. Both
payments were returned; however, SSA only credited the beneficiary’s record for one
returned payment. Consequently, the beneficiary’s record incorrectly has an
outstanding balance of payments after death of $1,084.

CONCLUSION AND RECOMMENDATIONS
SSA recovered most of the payments issued after beneficiaries’ deaths. However, we
found that SSA needed to improve its controls and procedures to ensure SSA staff
takes appropriate and timely actions to recover these payments. Based on our review,
we estimate that (1) $18.8 million in payments after death was not recovered or properly
resolved for approximately 25,940 deceased beneficiaries, and (2) $34.8 million in
recovered payments after death needed to be removed as an SPA on the MBR for
approximately 17,520 deceased beneficiaries.

We recommend that SSA:

1. Take corrective action, as appropriate, for the 68 errors identified by our audit.

2. Evaluate the results of its corrective actions for the 68 errors and determine whether
   it should review the population of 6,486 deceased beneficiaries with payments after
   death.




23
  One of the 28 errors for $42,861 was a statistical outlier compared to the other errors; therefore, we
excluded it from our projections.
Page 8 - The Commissioner

3. Remind employees to take appropriate actions to (a) initiate reclamation requests
   timely, (b) resolve periodic alerts, (c) recover payments after death from liable
   financial institutions/individuals, and (d) identify underpayments that occurred
   because of returned benefit checks or the reclamation of payments after
   beneficiaries’ deaths.

4. Revise, where needed, the frequency of periodic alerts. For example, the final alert
   at 18 months to determine whether SSA has received credit for funds reclaimed by
   Treasury should occur after 6 months and the alert to remind employees to initiate
   reclamation requests should be within the 120-day time limit.

AGENCY COMMENTS
SSA agreed with all our recommendations. The Agency’s comments are included in
Appendix D.




                                                   Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Sampling Methodology and Results

APPENDIX D – Agency Comments

APPENDIX E – OIG Contacts and Staff Acknowledgments
                                              Appendix A

Acronyms
Act        Social Security Act
C.F.R.     Code of Federal Regulations
EFT        Electronic Fund Transfer
MBR        Master Beneficiary Record
POMS       Program Operations Manual System
SPA        Special Payment Amount
SSA        Social Security Administration
U.S.C.     United States Code
Treasury   Department of the Treasury
                                                                      Appendix B

Scope and Methodology
We obtained a data extract from one segment of the Social Security Administration’s
(SSA) Master Beneficiary Record (MBR). From this extract, we identified a population
of 6,486 deceased Title II beneficiaries with payments after death of $100 or more. We
selected a random sample of 200 beneficiaries from the population for review.

To accomplish our objective, we

•   reviewed the applicable sections of the Social Security Act, Federal regulations,
    SSA’s Program Operations Manual System, other policy memorandums, and the
    Department of the Treasury’s procedures (Green Book and Gold Book);

•   interviewed SSA employees from the San Francisco Regional Office and the Offices
    of Financial Policy and Operations, Public Services and Operations Support, and
    Retirement and Survivors Insurance Systems;

•   reviewed queries from SSA’s MBR and Payment History Update System for each
    sample item; and

•   obtained and reviewed electronic folders, including the Paperless System and
    Online Retrieval System, to determine the nature and extent of actions SSA took.

We determined the computer-processed data from the MBR were sufficiently reliable for
our intended use. We conducted tests to determine the completeness and accuracy of
the data. These tests allowed us to assess the reliability of the data and achieve our
audit objectives.

We performed audit work in Richmond, California, between December 2009 and
August 2010. The entity reviewed was the Deputy Commissioner for Operations.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform
the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for
our findings and conclusions based on our audit objectives. We believe the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives.
                                                                                     Appendix C

Sampling Methodology and Results
We obtained a data extract from one segment of the Social Security Administration’s
(SSA) Master Beneficiary Record (MBR) of beneficiaries with payments after death of
$100 or more as of March 2008. From this extract, we identified a population of
6,486 deceased beneficiaries. 1 From this, we selected a random sample of
200 beneficiaries to determine whether SSA had taken appropriate actions to recover
the payments issued after the beneficiaries’ deaths.

Based on a random sample of 200 beneficiaries, we found that (1) $29,012 in payments
after death was not recovered or properly resolved for 40 beneficiaries, and
(2) $96,461 in recovered payments after death needed to be removed from the MBR for
28 deceased beneficiaries. 2

Projecting these results to our population of 6,486 beneficiaries, we estimate that
(1) $18.8 million in payments after death was not recovered or properly resolved for
approximately 25,940 deceased beneficiaries, and (2) $34.8 million in recovered
payments after death needed to be removed from the MBR for approximately
17,520 deceased beneficiaries. The following tables provide the details of our sample
results and statistical projections.

                Ta b le C-1: P o p u la tio n a n d S a m p le S ize                       Nu m b e r
    Population Size (Data Extract from 1 Segment)                                                  6,486
    Sample Size                                                                                       200
    Estimate for Entire MBR 3                                                                  129,720

       Table C-2: Improper Recovery Actions                         Number                 Amount
    Sample Results                                                             40              $29,012
    Point Estimate                                                          1,297             $940,848
    Projection - Lower Limit                                                1,007             $668,226
    Projection - Upper Limit                                                1,630           $1,213,471
    Estimate for Entire MBR 4                                              25,940          $18,816,960
Note: All projections are at the 90-percent confidence level.




1
 Based on the MBR, SSA likely became aware of the deaths of these beneficiaries between January
1998 and March 2008.
2
 One of the 28 errors for $42,861 was a statistical outlier compared to the other errors; therefore, we
excluded it from our projections and estimates.
3
    Represents the population multiplied by 20 segments.
4
    Represents the point estimate multiplied by 20 segments.


                                                    C-1
        Table C-3: Recovered Payments that
        Needed to be Removed from the MBR                           Number                 Amount
    Sample Results 5                                                           28              $96,461
    Point Estimate                                                            876           $1,738,228
    Projection - Lower Limit                                                  633             $336,154
    Projection - Upper Limit                                                1,171           $3,140,301
    Estimate for Entire MBR 6                                              17,520          $34,764,560
Note: All projections are at the 90-percent confidence level.




5
 One of the 28 errors for $42,861 was a statistical outlier compared to the other errors; therefore, we
excluded it from our projections and estimates.
6
    Represents the point estimate multiplied by 20 segments.


                                                    C-2
                  Appendix D
Agency Comments
                                      SOCIAL SECURITY
MEMORANDUM


Date:   December 22, 2010                                                     Refer To:   S1J-3

To:     Patrick P. O'Carroll, Jr.
        Inspector General

From:   Dean S. Landis        /s/
        Deputy Chief of Staff

        Office of the Inspector General (OIG) Draft Report, "Recovery of Title II Payments Issued After
        Beneficiaries’ Deaths" (A-09-10-11037)--INFORMATION

        Thank you for the opportunity to review the subject report. Please see our attached comments.

        Please let me know if we can be of further assistance. Please direct staff inquiries to
        Rebecca Tothero, Acting Director, Audit Management and Liaison Staff, at extension 66975.

        Attachment




                                                      D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, “RECOVERY OF TITLE II PAYMENTS ISSUED AFTER BENEFICIARIES’
DEATHS” (A-09-10-11037)

We offer the following responses to your recommendations.

Recommendation 1

Take corrective action, as appropriate, for the 68 errors identified by our audit.

Response

We agree. Of the 68 errors you identified, 34 involved various situations where we should have
recovered overpayments made to deceased beneficiaries, and 6 were for situations where we
recovered too much. We will review those cases and take corrective actions as necessary.

We acted appropriately in the remaining 28 cases, and as you acknowledge, recovered the related
“$96,461 in payments made after death.” We had not updated the Master Beneficiary Record for
these cases, but we will now take that action.

Recommendation 2

Evaluate the results of its corrective actions for the 68 errors and determine whether it should
review the population of 6,486 deceased beneficiaries with payments after death.

Response

We agree. After we take corrective action on the 68 errors, we will determine if we should
review the remaining population of 6,486 cases.

Recommendation 3

Remind employees to take appropriate actions to (a) initiate reclamation requests timely,
(b) resolve periodic alerts, (c) recover payments after death from liable financial
institutions/individuals, and (d) identify underpayments that may have occurred because of
returned benefit checks or the reclamation of payments after beneficiaries’ deaths.

Response

We agree. We will issue a reminder to all employees in the immediate future.

Recommendation 4

Revise, where needed, the frequency of periodic alerts. For example, the final alert at 18-months
to determine whether SSA has received credit for funds reclaimed by Treasury should occur after
6-months and the alert to remind employees to initiate reclamation requests should be within the
120-day time limit.


                                                 D-2
Response

We agree. We will research this issue and consider changing the frequency of our periodic
alerts.




                                              D-3
                                                                     Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   James J. Klein, Director, San Francisco Audit Division

   Joseph Robleto, Audit Manager

Acknowledgments

In addition to those named above:

   Manfei Lau, Senior Auditor

   Andrew Hanks, Auditor- in-Charge

For additional copies of this report, please visit our Website at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-09-10-11037.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
